June 7, 2021
BY ELECTRONIC FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re: No. 20-1163, Gloucester County School Board v. Gavin Grimm
Dear Mr. Harris:
I represent the Gloucester County School Board, the petitioner in this case. I
write to inform you that the Board waives the 14-day waiting period as allowed by
this Court’s Rule 15.5. The Board requests that the briefing in this case be set for
distribution on June 8, 2021, for consideration at the June 24, 2021 conference. The
Board is filing its Reply today to allow the Court to have the benefit of full briefing
before its conference.
Sincerely,
/s/ Gene C. Schaerr
Gene C. Schaerr
cc: All Counsel of Record (by email)

SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
www.Schaerr-Jaffe.com

